                                            UNCLASSIFIED





                   UNITED STATES DEPARTMENT OF STATE 

               AND THE BROADCASTING BOARD OF GOVERNORS

                               OFFICE OF INSPECTOR GENERAL


AUD-FM-14-21                                     Office of Audits                                         May 2014




               Audit of Department of State

                Use of Appropriated Funds

           Prior to Expiration and Cancellation





IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                            UNCLASSIFIED

                                                              nited State , De partment of Stale
                                                             and the Broadca ting Board of Governors

                                                             Office of Inspector General




                                            PREFACE

       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 198 0,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This repo1t is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

        The recommendations therein have been developed on the basis of the best knowledge
available to OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendati ons wi ll result in more effective,
efficient, and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Norman P. Brown
                                              Assistant Inspector General
                                               for Audits
                                  UNCLASSIFIED



Acronyms
BP         Bureau of Budget and Planning
CGFS       Bureau of the Comptroller and Global Financial Services
FAM        Foreign Affairs Manual
IRM        Bureau of Information Resource Management
NEA        Bureau of Near Eastern Affairs
OIG        Office of Inspector General
PRM        Bureau of Population, Refugees and Migration




                                  UNCLASSIFIED

                                                          UNCLASSIFIED



                                                        Table of Contents

Section                                                                                                                                  Page

Executive Summary.........................................................................................................................1


Background…. .................................................................................................................................2


Audit Objectives……. .....................................................................................................................3


Audit Results ..................................................................................................................................4

       Finding A. Department Used the Majority of Funds Within the Deadlines of the

                      Appropriations..................................................................................................4

       Finding B. Selected Bureaus Complied With Federal Requirements When Obligating

                      Expired Funds ................................................................................................11


List of Recommendations ..............................................................................................................15


Appendix
      A. Scope and Methodology................................................................................................16

      B. Bureau of Information Resource Management Response.............................................23

      C. Bureau of Bureau of Near Eastern Affairs Response....................................................25

      D. Bureau of Population, Refugees and Migration Response ...........................................27

      E. Bureau of Budget and Planning Response ....................................................................28


Major Contributors to This Report ................................................................................................30





                                                          UNCLASSIFIED

                                             UNCLASSIFIED


                                         Executive Summary

        Because of budget constraints, the Department of State (Department) has to make
funding decisions on programs and emphasize financial accountability, responsibility, and
efficiency. The Department must also spend the funds that it receives in accordance with Federal
law. Funds, or appropriations, are said to “expire” at the end of the fiscal year for which they are
appropriated. However, expired funds remain available for certain purposes for 5 years after
expiration. At the end of that 5-year period, the funds are “canceled” and any remaining funds
are taken back by the Department of the Treasury (the Treasury).

        The objectives of this audit were to determine whether Department bureaus used
appropriated funds within the deadlines of the appropriations and to determine whether
obligations using expired funds were made in accordance with Federal requirements.

       Overall, the Office of Inspector General (OIG) found that the Department used the
majority of its appropriated funds within the periods of availability for the related
appropriations. OIG found that the Department had to return $153 million, or 1.3 percent, of its
FY 2007 appropriations to the Treasury when the funds were canceled in FY 2012. Although the
Department had generally used the majority of its available funds within the periods of
availability, OIG found that there were opportunities to improve fund management. OIG
performed work at three bureaus—the Bureau of Information Resource Management (IRM); the
Bureau of Near Eastern Affairs (NEA); and the Bureau of Population, Refugees and Migration
(PRM). OIG identified two issues that negatively affected fund management and that could be
improved: insufficient oversight of unliquidated obligations and delays in the contract closeout
process. As a result, although the Department had used the vast majority of its funding within
the approved time periods, the Department lost the use of approximately $153 million in funds
because of limitations in funds management.

        In addition, OIG found that two of three selected bureaus 1 had made obligations using
expired funds in accordance with Federal requirements. Specifically, OIG found that all
98 domestic obligations made by NEA and IRM using expired funds that OIG tested were
allowable. The 98 obligations were either allowable adjustments to existing obligations,
realignments of funding using contract modifications, refunds to obligations with a zero balance,
or obligations that were created during the periods of availability for which the dates of the
obligations were incorrectly entered.

        OIG made four recommendations to the Department related to improving fund
management. Specifically, OIG made recommendations related to improving the oversight of
obligations and deobligating unneeded obligations.

      In March 2014, OIG provided a draft of this report to IRM, NEA, PRM, the Bureau of
Budget and Planning (BP), and the Bureau of the Comptroller and Global Financial Services

1
 PRM did not have any obligations made using expired funds and therefore was excluded from this testing. The
section “Detailed Sampling Methodology” in Appendix A provides additional information.

                                                  1
                                             UNCLASSIFIED
                                               UNCLASSIFIED


(CGFS). In its March 17, 2014, response (see Appendix B) to the draft report, IRM concurred
with Recommendations 1 and 2 but did not indicate agreement or disagreement with the amount
of obligations that OIG had identified as invalid. In its March 21, 2014, response (see Appendix
C) to the draft report, NEA concurred with Recommendations 3 and 4 but did not indicate
agreement or disagreement with the amount of obligations that OIG had identified as invalid.
Although no recommendations were addressed to PRM and BP, these bureaus provided
comments to the draft report, which are presented in Appendix D and Appendix E, respectively.
Based on the comments received, OIG considers Recommendations 1 and 3 resolved, pending
further action, and Recommendations 2 and 4 unresolved. The bureaus’ responses to the
recommendations and OIG’s replies to the responses are presented after each recommendation.

                                                 Background
       As a result of the recent focus within the Government on reducing spending, the
Department has been required to adjust budgets and make decisions on programs and to
emphasize financial accountability, responsibility, and efficiency. The Department’s FY 2013
Congressional Budget Justification stated that in a “time of fiscal restraint and economic
hardship for the American people,” the Department is “seeking out every opportunity to work
smarter and more efficiently.”

Budget Authority

        The Department must spend the funds that it receives in accordance with Federal law.
Budget authority is the authority for an agency to enter into financial obligations 2 that result in
immediate or future outlays of Government funds. Most budget authority is in the form of
appropriations. Appropriations are classified as no-year, multi-year, and single-year. No-year
appropriations are available for obligating and expending without a fiscal year limitation.
Multi-year appropriations are available for obligating for a defined period that exceeds 1 year,
while single-year appropriations are available for obligating only during the fiscal years for
which they were made. Funds, or appropriations, are said to “expire” for the purpose of
obligating at the end of the fiscal year for which they are appropriated. Both multi-year and
single-year appropriations have an additional 5-year period beyond the original period during
which the “expired” funds remain available for certain types of adjustments to obligations. At
the end of the 5-year period, the appropriation is closed and any remaining balance, whether
obligated or unobligated, is “canceled” 3 and the remaining funds are taken by the Treasury.

Fund Management Responsibilities

       The Department has two bureaus whose responsibilities specifically include fund
management—CGFS and BP. CGFS oversees all financial management activities related to the
programs and operations of the Department, monitors the financial execution of the budget in


2
  Obligations are amounts of orders placed, contracts awarded, services rendered, and similar transactions during a 

given period that will require payment.

3
  31 U.S.C. § 1552 (2010).


                                                    2
                                               UNCLASSIFIED
                                           UNCLASSIFIED


relation to actual expenditures, and establishes financial management policies and management
controls.

        BP assists the bureaus when they develop their budget requests. Once the Department
receives its funding, BP provides funds to the bureaus based on the bureaus’ financial plan.
Throughout the year, BP analysts monitor the bureaus’ use of funds in comparison to each
bureau’s financial plan, and analysts make adjustments as necessary. BP also exercises control
over the Department’s funds by providing funds that have not expired but have been deobligated
to bureaus so the funds can be used for other Department priorities, rather than allowing the
funds to expire. In addition, BP has the authority to use expired Diplomatic and Consular
Program appropriation funds for certain expenses because of fluctuations in foreign currency
values and payments of rewards for information related to terrorism, narcotics trafficking, and
war crimes.

        All bureaus, offices, and posts have fund management responsibilities in respect to the
funds that have been allotted to them. Specifically, budget offices are responsible for ensuring
that the funds are used for the purposes stated in the organizations’ financial plans and that there
is adequate funding available prior to obligation. The budget offices are also responsible for
monitoring funds and ensuring the necessity of obligations.

        During the course of the audit, OIG performed work at three bureaus—IRM, NEA, and
PRM. IRM’s mission is to rapidly and securely deliver information technology services
worldwide to accomplish the foreign affairs mission of the United States. NEA has a leading
role in advancing U.S. interests with the nations of the Near East. PRM’s mission is to provide
aid and sustainable solutions for refugees, victims of conflict, and stateless people around the
world through repatriation, local integration, and resettlement in the United States.

Prior OIG Reports

        In an FY 2012 report on internal controls, issued as part of the audit of the Department’s
annual financial statements, 4 the financial statement auditor reported that the audit had identified
obligations made to expired funds during FY 2012. The report stated that the Department did not
have a process in place to review obligations to ensure that they were not made against expired
funds, and the auditors did not find any system controls that prevented a user from recording a
new obligation against expired funds.

                                          Audit Objectives
        The objectives of this audit were to determine whether Department bureaus used
appropriated funds within the deadlines of the appropriations and to determine whether
obligations using expired funds were made in accordance with Federal requirements.



4
 Independent Auditor’s Report on the U.S. Department of State 2012 and 2011 Financial Statements (AUD-FM-13­
08, Nov. 2012).

                                                3
                                           UNCLASSIFIED
                                                  UNCLASSIFIED



                                                    Audit Results


Finding A. Department Used the Majority of Funds Within the Deadlines of
the Appropriations
        Overall, OIG found that the Department had used the majority of its appropriated funds
within the periods of availability for the related appropriations. Specifically, the Department
returned only 1.3 percent of its FY 2007 appropriations when the funds were canceled in
FY 2012. The amount of unused funds for specific bureaus and offices ranged from less than
1 percent to over 20 percent of funds. To determine whether there were any specific factors that
negatively affected the bureaus’ ability to effectively use their funds, OIG performed work at
three bureaus—IRM, NEA, and PRM. As a result of its work, OIG identified two key factors
that negatively affected fund management: insufficient oversight of unliquidated obligations and
delays in the contract closeout process. Although the Department had used the vast majority of
its funding within the approved time periods, the Department lost the use of some funds as a
result of limitations in funds management.

Department Generally Used Appropriated Funds Within Deadlines

       According to Federal policy, 5 management must ensure that Federal resources assigned
to them are used efficiently and effectively to achieve the desired objectives of the programs that
they manage. Fund management is especially important for single-year and multi-year funds
because of the limited time of fund availability.

        OIG found that overall the Department used 6 the majority of its appropriated funds
within the deadlines of the related appropriations. For instance, the Department received
approximately $11.9 billion in single-year and multi-year appropriations that expired at the end
of FY 2007. Of that amount, the Department used about $11.8 billion, and 5 years later, when
the funds were canceled in FY 2012, it returned unused funds amounting to about $153 million
(1.3 percent) to the Treasury. For appropriations that expired during FYs 2005–2007 (and were
returned to the Treasury in FYs 2010–2012), the total amount of funds returned to the Treasury
was about $521 million, or only 1.6 percent of the appropriations received, as shown in Table 1.

     Table 1. Percent of Single-Year and Multi-Year Funds Returned to the Treasury
     (FYs 2010–2012)
                                                                                      Percent of Funds
        Fiscal          Appropriations            Amount Returned to the              Returned to the
         Year             Received                     Treasury                          Treasury
       2005                 $7,595,110,733                   $69,671,007                    0.9
       2006                 13,652,916,989                   298,659,083                    2.2
       2007                 11,923,881,825                   153,215,674                    1.3
       Totals              $33,171,909,547                  $521,545,764                    1.6
     Source: Prepared by OIG using the “Modified High Level Budget and Spending Extract” budget reports for
     appropriations that were canceled in FYs 2010–2012 and the Statements of Budgetary Resources for FYs 2010–2012.


5
    OMB Circular A-123, Management’s Responsibility for Internal Control.
6
    OIG defines “used” as expending available funds.

                                                       4
                                                  UNCLASSIFIED
                                                  UNCLASSIFIED

        Although the Department used the vast majority of its appropriated funds within the
periods of availability, the amount of unused funds for the bureaus and offices ranged from less
than 1 percent to over 20 percent of funds received. For example, in FY 2010, the Office of the
Chief of Protocol returned to the Treasury approximately 21.8 percent ($371,000) of the nearly
$1.7 million that it had received in FY 2005. Of the 35 7 bureaus and offices that had canceled
funds in FY 2012, 24 bureaus or offices returned over 2 percent of their funds to the Treasury. 8

        To determine whether there were any specific factors that negatively affected the
bureaus’ ability to use their funds, OIG performed testing at three bureaus—IRM, NEA, and
PRM. 9 Two of the bureaus, IRM and NEA, generally exceeded the Department’s overall
average of 1.6 percent of funds returned to the Treasury, and the two bureaus returned more than
$1 million of unused funds to the Treasury each year between FY 2010 and FY 2012. For
example, in FY 2012, IRM returned approximately $7 million to the Treasury, which was
4.4 percent of the appropriation it had received in FY 2007 and NEA returned approximately
$36 million, which was 2.3 percent of the funds that it had received in FY 2007. In addition,
these two bureaus accounted for approximately 28.2 percent of all Department funds returned to
the Treasury in FY 2012. In contrast, PRM consistently returned less than 1 percent of its funds
to the Treasury. The amounts returned to the Treasury by the three bureaus during FYs 2010–
2012 are detailed in Table 2.

Table 2. Appropriated Funds From FYs 2005–2007 Returned to the Treasury by Selected Bureaus
               FY 2005 Appropriations                FY 2006 Appropriations                 FY 2007 Appropriations
                             Amount                                 Amount                                 Amount
               Amount      Returned to               Amount       Returned to               Amount       Returned to
    Bureau
              Received    the Treasury               Received    the Treasury               Received    the Treasury
                            (Percent)                              (Percent)                              (Percent)
                             $3,773,608                             $1,860,604                             $6,991,563
    IRM      $125,450,000                           $147,118,577                           $157,905,129
                                   (3.0)                                  (1.3)                                  (4.4)
                              7,512,377                             11,059,420                             36,212,045
    NEA       294,890,267                            483,486,541                          1,569,625,199
                                   (2.5)                                  (2.3)                                  (2.3)
                                 47,943                              1,152,023                                521,074
    PRM         6,738,913                            415,869,774                            129,846,306
                                   (0.7)                                  (0.3)                                  (0.4)
    Totals   $427,079,180   $11,333,928           $1,046,474,892   $14,072,047           $1,857,376,634   $43,724,682
Source: Prepared by OIG using the “Modified High Level Budget and Spending Extract” budget reports for appropriations that
canceled in FYs 2010–2012.

Insufficient Oversight of Obligations and Delays in Contract Closeout Process Negatively
Affected Fund Management

       Although NEA and IRM had used the vast majority of their available funds within the
periods of availability, OIG found that there were opportunities to improve fund management.
OIG met with officials in NEA and IRM to gain an understanding of the factors that negatively

7
  There were 35 bureaus and offices with canceled funds in FYs 2012 and 2011. However, only 33 bureaus and 

offices had canceled funds in FY 2010.

8
  Appendix A, “Scope and Methodology,” includes information on the bureaus and offices that returned the highest

and lowest amount of funds to the Treasury.

9
  The section “Detailed Sampling Methodology” in Appendix A provides information on how these bureaus were 

selected for this audit.


                                                       5
                                                  UNCLASSIFIED
                                                 UNCLASSIFIED


affected the bureaus’ fund management. OIG also met with PRM officials to gather information
on potential best practices that other bureaus could adopt to improve fund management. As a
result, OIG identified two key factors that negatively affected fund management at NEA and
IRM: insufficient oversight of unliquidated obligations and delays in the contract closeout
process.

          Insufficient Management of Unliquidated Obligations

         Obligations are commitments made by the Government that create a legal liability for
payment, such as when the Government enters into a contract to purchase goods or services.
Obligations are a significant component of Government fund management, since obligations
restrict the use of funds because those funds are committed for a future purpose. Obligations
remain open until they are fully reduced by disbursements, are deobligated, or the related
appropriation is canceled. If all goods and services have been received and paid for, or if there is
a decrease in the cost of the goods or services needed, obligation balances should be deobligated
and the funds should be used for other Department needs consistent with the source of the
appropriation.

        OIG found that IRM and NEA did not sufficiently manage open obligations. OIG
randomly sampled obligations from the three bureaus to determine whether they were valid. 10
During its testing, 11 OIG identified a significant number of obligations for IRM and NEA that
were not valid. PRM, however, had only one obligation that was not valid. Specifically, of 183
obligations tested at the three bureaus, totaling $87.7 million, 113 obligations (about 62 percent),
totaling approximately $6.9 million, were invalid. Of 113 invalid obligations identified, 53,
totaling approximately $5.4 million, were canceled at the end of FY 2012, meaning those funds
were returned to the Treasury. The results of OIG’s testing of obligations at each bureau are
shown in Table 3.

Table 3. Results of Random Sample Obligation Testing by Bureau
                   Obligations Tested                   Valid Obligations                 Invalid Obligations

  Bureau       Number*         Dollar Value       Number          Dollar Value         Number         Dollar Value
 IRM                     99       $7,448,230              33           $6,165,831              66        $1,282,399
 NEA                     71         9,880,376             25            4,220,105              46          5,660,271
 PRM                     13       70,414,614              12           70,414,373               1                241
 Totals                183       $87,743,220              70         $80,800,309             113         $6,942,911
Source: Prepared by OIG based on results of its random sample.

*OIG selected IRM and NEA obligations based on a random sample. OIG tested all 13 PRM obligations. The section “Detailed

Sampling Methodology” in Appendix A provides information on the selection of obligations tested.





10
   OIG defined an obligation as valid if it was deobligated 6 months or less from the date of the last monetary
activity, if the obligation had monetary activity that occurred 6 months or less prior to testing, if the obligation was
completely liquidated prior to testing, or if bureau management could support that the obligation was still needed for
a valid purpose.
11
   The section “Detailed Sampling Methodology” in Appendix A provides information on how these bureaus were
selected for this audit.

                                                      6
                                                 UNCLASSIFIED
                                           UNCLASSIFIED


       Of 99 IRM items tested, OIG identified 66 invalid obligations, totaling approximately
$1.3 million. Specifically, 56 of 66 invalid obligations involved documentation deficiencies.
For 40 of 56 invalid obligations involving documentation, IRM could not provide documentation
regarding why it took so long to deobligate the items and suggested that OIG contact other
Department officials for the information. IRM should have sufficient documentation available to
support both open and recently closed obligations. 12 The majority (34 of 40) of these obligations
were open for 4 years or more. For 16 of 56 invalid obligations involving documentation, an
IRM official stated that IRM did not keep the complete contract files and instead relied on the
Bureau of Administration, Office of Logistics Management, Office of Acquisitions Management,
to maintain the needed support for obligations for contracts. According to IRM officials, 10 of
66 invalid obligations remained open when the obligations were no longer needed because of
personnel changes or miscellaneous other issues, such as invoicing problems.

         Of 71 NEA items tested, OIG identified 46 invalid obligations, totaling approximately
$5.7 million. For example, one obligation, for $15,964, had been held over 5 years at the request
of the Bureau of Administration for a planned renovation that never occurred. NEA officials
cited the challenges of working under difficult circumstances in Iraq as a reason that some of the
obligated items had remained open longer than necessary. NEA officials also cited issues such
as obtaining information from program offices and other agencies as reasons for delays in
closing out obligations. According to an NEA official, approximately 40 percent of NEA funds
come from reimbursements from other agencies, such as the U.S. Agency for International
Development, for positions at overseas locations. The NEA official also stated that because
these reimbursements are often provided in September, which is the end of the fiscal year, NEA
finds it difficult to use the funds before the appropriation expires.

        Of 13 PRM items tested, OIG identified only one nominally valued invalid obligation. 13
This invalid item had been open for more than 3 years with no activity. PRM officials stated that
this obligation remained open because a grantee had not provided the final Negotiated Indirect
Cost Rate Agreement, which is a requirement for the grant closeout process, even though PRM
had requested the information on several occasions. PRM stated that this would not be a factor
in the future because new rules had been implemented that tightened the timeframes for grantees
to submit their final financial reports based on the indirect cost rate agreements.

       Monitoring Obligations. Monitoring obligations is a challenge, according to a
Department official, especially when it involves monitoring amounts that are obligated
domestically but managed by program officers in other bureaus, at overseas locations, or other
agencies. The Department’s Foreign Affairs Manual (FAM) states that responsibility for
reviewing obligations and deobligating funds when needed is assigned to each official who
receives an allotment of funds. 14 The FAM also states that allotment holders must establish
procedures for monthly reviews of unliquidated obligations and these reviews should ensure that
those unliquidated obligations deemed valid are supported with proper documentation. 15 In
addition to the required monthly reviews, CGFS has implemented additional periodic reviews of

12
   31 U.S.C. § 1501 (2010).

13
   The one invalid PRM obligation totaled $241.

14
   4 FAM 032.4-2(7)(e), “Fund Controls.”

15
   4 FAM 225, “Accounting Controls and Obligation Management.”


                                                7
                                           UNCLASSIFIED
                                        UNCLASSIFIED


obligations, including at the end of the fiscal year. This control requires bureaus and posts to
review selected obligations, certify their validity or deobligate, and report the results of this
review to CGFS.

        All three bureaus indicated that they had reviewed and took action as needed on the
selected obligations provided periodically by CGFS for review. For instance, 5 of 46 obligations
for NEA that OIG identified as being invalid were finally reviewed and deobligated as part of the
CGFS initiated review. However, we found that the IRM and NEA did not comply with the
requirement to review all obligations each month. Specifically:

       •	 IRM developed new processes in FY 2013 that rely on several applications to track
          the status of funds and communicate that information to the program offices. These
          applications keep track of obligated funds for each program and list the status of
          obligations by program office. In addition, IRM officials stated that IRM has
          monthly meetings with program officers during which the officers are reminded to
          review their programs for opportunities to deobligate funds. However, IRM does not
          require a comprehensive monthly review of obligations. Instead, IRM focuses its
          obligation review on the obligations provided by CGFS quarterly. IRM’s policy is
          that the program offices should respond to the IRM budget office on each open
          obligation from the CGFS list within 30 days. IRM budget officials estimated that
          program offices provide responses only on about 50 percent of the requested items
          within the 30-day timeframe.

       •	 NEA officials indicated that the NEA obligation reviews are focused on responding to
          the quarterly requests from CGFS. In addition, NEA officials stated that NEA has
          monthly meetings to remind program offices to deobligate funds as soon as possible.
          NEA officials stated that they have begun to review obligations more often in order to
          use more funds before they expire. However, NEA indicated in its annual obligations
          certification that it was unable to review all open obligations because of NEA’s huge
          volume of obligations, including obligations related to Iraq, lack of staff, and other
          priority deadlines.

        On the other hand, PRM’s budget analysts performed monthly reviews of obligations,
which was in compliance with Department policy. PRM officials stated that PRM places a high
priority on reviewing obligations. The officials also stated that PRM has worked diligently to get
the number of open obligations to a manageable level. As shown by OIG’s testing,
implementing this control has been an effective way to keep invalid obligations to a minimum.

        Inadequate controls over obligations have been a longstanding problem within the
Department. For instance, weaknesses in controls over obligations were initially reported in the
audit of the Department’s FY 1997 financial statements and subsequent audits. In the FY 2013
report, the financial statement auditors identified invalid obligations amounting to approximately
$244 million that had not been identified by the Department’s review process. The auditors also
reported that the Department’s internal controls were not sufficient to ensure that obligations were
consistently and systematically evaluated for validity and deobligation. It is important for the
Department to continue to focus management attention on this deficiency.

                                             8
                                        UNCLASSIFIED
                                            UNCLASSIFIED



        Delays in Contract Closeout Process

        Officials from NEA and IRM cited delays in the contract closeout process as having a
negative effect on their ability to manage funds. The Federal Acquisition Regulations 16 provide
timelines ranging from 6 months to 36 months for closing out different types of contracts, which
is a significant amount of time for an agency’s funds to be restricted. However, this situation
becomes worse when the closeout process takes longer than the Federal Acquisition Regulations
timelines. For example, NEA had 12 obligations, totaling about $2.3 million, that remained open
unnecessarily for an average of 2 years before being deobligated because of the contract closeout
process. IRM also had two obligations, totaling about $44,000, that remained open between 1
and 5 years longer than needed because of delays in the contract closeout process.

        An OIG report 17 found that of 53 completed task orders tested, only 13 (24.5 percent) had
been closed out within the timelines prescribed by the Federal Acquisitions Regulations. The
OIG contract closeout report identified deficiencies with the Department’s comprehensive
procedural guidance for contract closeout. In addition, the report stated that the Department
needed a unified contract management system. The report identified $38.7 million in funds
related to the contracts tested that had not been available to use for other purposes because of the
deficiencies noted in the contract closeout process. Because the recommendations in this report
had not been addressed as of December 2013, OIG is not making additional recommendations
related to contract closeout in this report. However, the length of time needed to close out
contracts has a significant negative effect on the Department’s ability to manage its funds
successfully.

Funds Could Have Been Put to Better Use

        Although the Department had used the vast majority of its funding within the approved
time periods, the Department lost the use of some funds as a result of limitations in fund
management. These funds could have been used by the Department for high-priority unfunded
needs. As reported, the Department returned over $153 million to the Treasury in FY 2012.
Although this is a small percentage of the Department’s overall budget, it still represents funds
that could have been put to better use. Based on the concerns identified with oversight of
obligations, it is clear that at least some of the funds lost could have been managed better and
used during the periods of availability.

        Of 113 invalid obligations that OIG identified at the three bureaus audited, 78
obligations, totaling $5.8 million, had either been deobligated or returned to the Treasury before
OIG began the audit. Of the remaining invalid items, the bureaus deobligated eight obligations,
totaling about $184,000, after OIG had requested support for those items, meaning that these
funds could have been put to better use. In addition, 27 obligations, totaling about $981,000,
remained open as of August 21, 2013. If the Department deobligated these funds, they could be


16
 FAR 4.804, “Closeout of Contract Files.”

17
 Audit of the Contract Closeout Process for Contracts Supporting the U.S. Mission in Iraq (AUD-MERO-14-06, 

November 2013).



                                                 9
                                            UNCLASSIFIED
                                                  UNCLASSIFIED

used for other allowable purposes. Details on the status of the funds related to invalid
obligations identified during the audit are provided in Table 4.

Table 4. Status of Funds Related to Invalid Obligations

                                                    Amount
                               Adjustments        Canceled and           Amount        Amount        Amount of
                 Amount         for Valid          Returned to         Deobligated    Deobligated      Open
  Bureau        Sampled          Activity         the Treasury         Before Audit   After Audit    Obligations
 IRM            $1,282,399          $18,996            $929,444             $85,531         $8,961      $239,467
 NEA              5,660,271          (51,463)           4,494,021           300,771       175,397        741,545
 PRM                    241                  0                   241             0              0             0
 Totals         $6,942,911          ($32,467)         $5,423,706          $386,302       $184,358       $981,012
Source: Prepared by OIG based on results of its random sample.

           Recommendation 1. OIG recommends that the Bureau of Information Resource
           Management (IRM) enhance its funds management standard operating procedures to
           improve oversight of obligations. Specifically, IRM should include a requirement that
           the allotment holders review obligations monthly and that the review of obligations is
           independently monitored.

           IRM Response: IRM agreed with this recommendation, stating that it had developed “a
           new Unliquidated Obligation Tracking Tool.” This new tool allows “allotment holders to
           conduct comprehensive monthly reviews.” Additionally, IRM has “monthly monitor and
           obligation reviews” with BP and CGFS.

           OIG Reply: OIG considers the recommendation resolved. This recommendation can be
           closed when OIG reviews and accepts documentation showing that IRM has enhanced its
           funds management standard operating procedures to improve its oversight of obligations.

           Recommendation 2. OIG recommends that the Bureau of Information Resource
           Management determine whether the balance of $239,467 in invalid unliquidated
           obligations identified by OIG is necessary and, if not, deobligate.

           IRM Response: IRM agreed with this recommendation, stating that it had
           “communicated guidance to allotment holders to determine whether the remaining
           balance . . . in invalid unliquidated obligations” was needed and “if not, to deobligate . .
           . .” IRM required allotment holders “to provide determinations on these obligations in
           30 days.”

           OIG Reply: While IRM stated that it agreed with OIG’s recommendation, the response
           was not satisfactory to resolve the recommendation because management did not provide
           a decision with respect to the validity of the $239, 467 in unliquidated obligations
           identified by OIG as invalid. 18 This recommendation can be resolved when IRM
           provides a determination (dollar value agreed to or not agreed to) on the validity of the

18
     Inspector General Act, as amended, Pub. L. 95-452, Sec. 5(a)(9).

                                                       10
                                                  UNCLASSIFIED
                                                 UNCLASSIFIED


           $239,467 in unliquidated obligations. This recommendation can be closed when OIG
           reviews and accepts documentation showing the actions IRM has taken to deobligate the
           obligations determined to be invalid.

           Recommendation 3. OIG recommends that the Bureau of Near Eastern Affairs (NEA)
           enhance its funds management standard operating procedures to improve oversight of
           obligations. Specifically, NEA should include a requirement that the allotment holders
           review obligations monthly and that the review of obligations is independently
           monitored.

           NEA Response: NEA stated that it was “currently performing monthly obligation
           reviews” and that it had already made “gains in deobligating a substantial number” of
           obligations by “conducting more frequent meetings with accountable NEA personnel.”
           NEA also stated that it is working with other bureaus on “logistical challenges”
           concerning closing obligations.

           OIG Reply: OIG considers the recommendation resolved. This recommendation can be
           closed when OIG reviews and accepts documentation showing that NEA has enhanced its
           funds management standard operating procedures to improve its oversight of obligations.

           Recommendation 4. OIG recommends that the Bureau of Near Eastern Affairs
           determine whether the balance of $741,545 in invalid unliquidated obligation identified
           by OIG is necessary and, if not, deobligate.

           NEA Response: NEA stated that it will review the obligations identified by OIG and
           “make a determination” if deobligation “is required.”

           OIG Reply: The NEA response was not satisfactory to resolve the recommendation
           because management did not provide a decision with respect to the validity of the
           $741,545 in unliquidated obligations identified by OIG as invalid. 19 This
           recommendation can be resolved when NEA provides a determination (dollar value
           agreed to or not agreed to) on the validity of the $741,545 in unliquidated
           obligations. This recommendation can be closed when OIG reviews and accepts
           documentation showing the actions NEA has taken to deobligate the obligations
           determined to be invalid.

Finding B. Selected Bureaus Complied With Federal Requirements When
Obligating Expired Funds
      Federal regulations limit how agencies can use funds once an appropriation has expired.
OIG found that NEA and IRM made obligations using expired funds in accordance with Federal




19
     Inspector General Act, as amended, Pub. L. 95-452, Sec. 5(a)(9).

                                                      11
                                                 UNCLASSIFIED
                                                 UNCLASSIFIED


requirements. 20 Specifically, OIG found that all 98 obligations made by NEA and IRM using
expired funds were allowable. The 98 obligations were either allowable adjustments to existing
obligations, realignments of funding using contract modifications, refunds to obligations with a
zero balance, or obligations that were created during the periods of availability but the dates of
the obligations were incorrectly entered.

No Instances of Noncompliance Identified During Testing of Obligations

        According to Federal appropriation law, 21 expired funds remain available for 5 years
after the period of availability “for recording, adjusting, and liquidating obligations properly
chargeable to that account.” However agencies cannot obligate funds for newly determined
needs after the periods of fund availability have ended. For example, if the agency needs to
increase the quantity of items ordered after the funds have expired, the agency would have to use
other funds for the additional items.

       In order to assess the Department’s compliance with Federal regulations related to
expired funds, OIG tested 98 domestic obligations against expired funds included in the
Department’s unliquidated obligation database as of March 31, 2013, for two bureaus—NEA and
IRM. 22 As shown in Table 5, the total amount of obligations tested for the two bureaus was
$485,965,597.

         Table 5. Number and Amount of Obligations Tested by Bureau
                                          Number of Obligations
                    Bureau                      Tested                    Amount of Obligations Tested
          NEA                                                33                          $443,466,102
          IRM                                                65                             42,499,495
          Totals                                             98                          $485,965,597
         Source: Unliquidated obligation database as of March 31, 2013.

        We found that the 98 obligations tested were established in compliance with Federal
requirements. Specifically, 5 of the obligations were allowable adjustments that provided
additional funds to existing obligations, 68 were realignments of funding through contract
modifications that did not change the amounts originally awarded to the contracts, 22 were
refunds received and posted to obligations with zero balances, and 3 were obligations that were
established during the period of availability but that had different dates in the Department’s
financial management system. The results of the testing, by bureau, are provided in Table 6.




20
   PRM did not have any obligations using expired funds during the scope of the audit; therefore, no testing was

performed at PRM for this objective. The section “Detailed Sampling Methodology” in Appendix A provides

information on how these bureaus were selected for this audit.

21
   31 U.S.C. § 1553 (2010).

22
   Details on our testing are provided in the section “Scope and Methodology” of this report.


                                                      12
                                                 UNCLASSIFIED
                                                 UNCLASSIFIED

       Table 6. Results of Testing Obligations Using Expired Funds

              Obligation Category                       NEA            IRM        Total
        Valid Upward Adjustment                                    5          0            5
        Realignment of Funds                                      12         56           68
        Refund Posted                                             13          9           22
        Incorrect Date                                             3          0            3
        Totals                                                    33         65           98
       Source: Prepared by OIG based on the results of its testing.


       Adjustments to Existing Obligations

         Of 98 obligations tested, 5 were allowable adjustments to existing obligations, which
increased the amount of the original obligations during the expired period. For example, an
obligation was established using FY 2012 funds to acquire goods for Embassy Baghdad. The
initial vendor was unable to complete all of the requirements included in the purchase order;
therefore, another vendor was selected to complete the order. However, the new vendor charged
more for the services than the initial vendor. In January 2013, after the period of availability of
the FY 2012 funds had expired, NEA used FY 2012 funds to increase the amount of the original
obligation to cover the additional costs, which is an allowable upward adjustment to an existing
obligation.

       Realignments of Funding

        OIG determined that 68 of 98 obligations tested were allowable realignments of funds
through contract modifications that did not increase the amount originally obligated. For
example, IRM realigned $1,600 from one equipment repair category related to a task order to a
different equipment repair category in the same task order. Although the realigned funds were
related to an expired period—FY 2008 for the example—the realignments did not increase the
original funding amount but instead moved funds to more accurately reflect the work being
performed under the task order.

       Refunds Posted to Obligations With Zero Balances

        Of 98 obligations tested, 22 were refunds recorded to obligations with a zero balance.
For example, in February 2008, NEA established an obligation in the amount of $1 million for a
cooperative agreement. In March 2010, the funds had been fully expended. However, the
grantee provided a refund after the obligation had been fully expended. When the refund was
recorded, it showed up in the unliquidated obligation database as a new obligation. According to
a CGFS official, in order to sufficiently maintain the data in the accounting system, the
Department had been removing obligations with a zero balance. When a refund was received for
an obligation that had been removed, the transaction created an obligation with a new
“established date.” It therefore appeared to be a new obligation, even though it was actually a
refund. During FY 2012, the Department modified the process and no longer removes zero-
balance obligations from the accounting system.




                                                      13
                                                 UNCLASSIFIED
                                        UNCLASSIFIED



       Valid Obligations With Incorrect Dates

        OIG found that 3 of 98 obligations were created during the period of fund availability but
that the correct date was not recorded for the obligation. Specifically, data entry errors had been
made for two of the three obligations. The third obligation was entered into the financial
management system on the last day of the fiscal year, but because of the time it took to process
the transaction, the system automatically recorded the transaction as of the date it was processed,
which was the first day of the new fiscal year.




                                             14
                                        UNCLASSIFIED
                                      UNCLASSIFIED



                                List of Recommendations

Recommendation 1. OIG recommends that the Bureau of Information Resource Management
(IRM) enhance its funds management standard operating procedures to improve oversight of
obligations. Specifically, IRM should include a requirement that the allotment holders review
obligations monthly and that the review of obligations is independently monitored.

Recommendation 2. OIG recommends that the Bureau of Information Resource Management
determine whether the balance of $239,467 in invalid unliquidated obligations identified by OIG
is necessary and, if not, deobligate.

Recommendation 3. OIG recommends that the Bureau of Near Eastern Affairs (NEA) enhance
its funds management standard operating procedures to improve oversight of obligations.
Specifically, NEA should include a requirement that the allotment holders review obligations
monthly and that the review of obligations is independently monitored.

Recommendation 4. OIG recommends that the Bureau of Near Eastern Affairs determine
whether the balance of $741,545 in invalid unliquidated obligations identified by OIG is
necessary and, if not, deobligate.




                                           15
                                      UNCLASSIFIED
                                        UNCLASSIFIED


                                                                                      Appendix A
                                  Scope and Methodology

        The purpose of this audit was to assist the Department of State (Department) in its efforts
to manage its funds and ensure that obligations made against expired funds complied with the
law. The objectives of this audit were to determine whether Department bureaus used
appropriated funds within the deadlines of the appropriations and to determine whether
obligations using expired funds were made in accordance with Federal requirements.

       The Office of Inspector General (OIG) conducted fieldwork for this audit from May to
October 2013 at the Bureau of Budget and Planning (BP); the Bureau of the Comptroller and
Global Financial Services (CGFS); the Bureau of Information Resource Management (IRM); the
Bureau of Near Eastern Affairs (NEA); and the Bureau of Population, Refugees and Migration
(PRM). In order to assess the bureaus’ use of funds, OIG limited its audit work to reviewing
appropriations provided during FYs 2005–2007, meaning that these funds were canceled during
FYs 2010–2012. In order to assess whether obligations using expired funds were in compliance
with Federal requirements, OIG limited its audit work to domestic obligations made during FYs
2009–2013.

        OIG conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that OIG plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for its findings and conclusions
based on its audit objectives. OIG believes that the evidence obtained provides a reasonable
basis for its findings and conclusions based on the audit objectives.

       To obtain background for the audit, OIG researched and reviewed public laws and
U.S. Code sections related to appropriations, Government Accountability Office guidance, the
Department’s Foreign Affairs Manual and Foreign Affairs Handbook, Department financial
system reports, bureau guidance, budget-related documents, and other Department guidance.
OIG also obtained and reviewed the Department’s financial statements and the Department’s
Congressional Budget Justifications.

        OIG interviewed officials in BP, CGFS, IRM, NEA, and PRM to gain an understanding
of the processes involved in the formulation of budgets, as well as the processes for obligating
and monitoring appropriated funds, to ensure that the funds were used within their deadlines.
OIG also obtained and analyzed IRM, NEA, and PRM written procedures and other available
documentation to gain an understanding of their monitoring and reporting responsibilities.
Additionally, OIG interviewed IRM, NEA, and PRM officials to gain an understanding of their
roles and responsibilities for ensuring that funds were properly monitored.

        During the audit, OIG performed steps to determine whether selected bureaus had used
their appropriated funds effectively and efficiently within the deadlines of the appropriations.
Specifically, OIG obtained the Department’s Statements of Budgetary Resources for FYs 2010–
2012 and extracted the single-year and multi-year appropriations that were canceled in those
fiscal years. OIG then calculated the amount of funds returned to the Department of the
Treasury (the Treasury) for the three fiscal years. To determine how much the Department

                                             16
                                        UNCLASSIFIED
                                        UNCLASSIFIED


received in single-year and multi-year funds for those fiscal years, OIG identified appropriation
codes, which it used to run budget reports from the Department’s domestic accounting system
and identify the appropriated amounts received by the Department. OIG was then able to
determine the percentage of funds that were canceled compared with funds received at the
Department level for each fiscal year.

       OIG also obtained the Modified High-Level Budget and Spending Extract Reports from
the domestic accounting system, which OIG used to identify the approximate amount of funds
canceled by bureau by fiscal year. OIG used the budget reports to determine an estimate of
funds canceled by bureau for FYs 2010–2012. OIG analyzed the information to determine the
amount and percent of funds returned to the Treasury by bureau for FYs 2010–2012.

        In order to determine whether the selected bureaus had complied with Federal
requirements when obligating expired funds, OIG obtained the Department’s unliquidated
obligations database as of March 31, 2013. OIG limited its work to domestic obligations with a
positive balance. OIG excluded zero dollar value obligations, as these items had no effect on the
Department’s funds. OIG then extracted the obligations by fiscal year and identified the bureaus
that made obligations against expired funds.

Use of Computer-Processed Data

       The audit team used computer-processed data from the Department’s Global Financial
Management System, which is the Department’s domestic accounting system, during this audit.
OIG obtained budgeted amounts received and canceled funds data for FYs 2010–2012 by
bureau. OIG also generated a sample of obligations for testing using the unliquidated obligations
database as of July 31, 2012, and tested the obligations for reliability. Issues identified during
fieldwork are detailed in the section “Audit Results” of Finding A, “Department Used the
Majority of Funds Within the Deadlines of the Appropriations.” Finally, OIG used data from the
unliquidated obligations database as of March 31, 2013, to select obligations made using expired
funds and tested them for reliability. Results of the testing are detailed in the section “Audit
Results” of Finding B, “Selected Bureaus Complied With Federal Requirements When
Obligating Expired Funds.”

Work Related to Internal Controls

        OIG performed steps to assess the adequacy of internal controls related to the areas
audited. For example, OIG tested obligations to determine whether the selected bureaus had
sufficient controls in place to manage their funds. Work performed on internal controls during
the audit is detailed in the section “Audit Results” of the report.

Detailed Sampling Methodology

        OIG’s sampling objectives were to determine whether selected bureaus had valid
unliquidated obligations and whether the bureaus complied with Federal requirements when
obligating expired funds.



                                             17
                                        UNCLASSIFIED
                                                  UNCLASSIFIED


         Selection of Bureaus

         OIG selected IRM, NEA, and PRM to perform its audit work using a nonstatistical
sampling methodology known as judgment sampling. Because this method uses discretionary
criteria to effect sample selection, OIG was able to use information garnered during its
preliminary work to aid in making informed selections. Primarily, OIG used two criteria to
select the bureaus for performing audit testing.

        The first criterion was the amount of funds received in FYs 2005–2007 that were returned
to the Treasury in FYs 2010, 2011, and 2012, respectively. OIG used information from the
Department to identify the 10 bureaus or offices that had returned the highest amount of funds to
the Treasury, which are shown in Table 1. In addition, as shown in Table 2, OIG used the same
information to identify the 10 bureaus or offices that had returned the least amount of funds to
the Treasury during FYs 2010–2012.

Table 1. Bureaus or Offices With the Highest Amount of Funds From FYs 2005–2007
Returned to the Treasury (in millions)
                                             FY 2005                       FY 2006                      FY 2007
                                         Appropriations                Appropriations               Appropriations
                                                   Amount                        Amount                      Amount
                                       Amount     Canceled           Amount     Canceled          Amount Canceled
              Bureau                   Received   (Percent)          Received   (Percent)         Received (Percent)
 International Narcotics and                                 $0.7                       $110.1                       $44.9
                                           $326.0                      $3,262.5                    $2,154.2
 Law Enforcement Affairs                                      (0)                          (3)                         (2)

                                                           $17.9                         $42.6                       $37.4
 Diplomatic Security                       $423.5                      $1,322.1                    $1,419.3
                                                             (4)                           (3)                         (3)
                                                            $7.5                         $11.1                       $36.2
 Near Eastern Affairs                      $294.9                        $483.5                    $1,569.6
                                                             (3)                           (2)                         (2)
                                                            $9.4                         $10.9                       $19.0
 African Affairs                           $402.6                        $456.4                      $558.2
                                                             (2)                           (2)                         (3)
                                                            $8.8                          $7.9                       $12.0
 Administration                            $310.0                        $323.3                      $331.5
                                                             (3)                           (2)                         (4)
                                                           $12.1                         $12.5                        $8.2
 European and Eurasian Affairs             $562.0                        $569.9                      $584.9
                                                             (2)                           (2)                         (1)
                                                            $4.8                          $5.6                        $7.2
 Western Hemisphere Affairs                $196.7                        $221.4                      $229.1
                                                             (2)                           (3)                         (3)
 Information Resource                                       $3.8                          $1.9                        $7.0
                                           $125.5                        $147.1                      $157.9
 Management                                                  (3)                           (1)                         (4)
 International Security and                                 $0.9                          $7.5                        $7.0
                                           $145.1                        $195.8                      $209.1
 Nonproliferation                                            (1)                           (4)                         (3)
                                                            $5.2                          $6.8                        $6.4
 East Asian and Pacific Affairs            $215.7                        $231.0                      $222.5
                                                             (2)                           (3)                         (3)
Source: Prepared by OIG using the “Modified High Level Budget and Spending Extract” budget reports for appropriations that
were canceled in FYs 2012–2010.




                                                       18
                                                  UNCLASSIFIED
                                                  UNCLASSIFIED


Table 2. Bureaus or Offices With the Least Amount of Funds From FYs 2005–2007
Returned to the Treasury (in millions)
                                             FY 2005                       FY 2006                      FY 2007
                                         Appropriations                Appropriations               Appropriations
                                                   Amount                        Amount                      Amount
                                       Amount     Canceled           Amount     Canceled          Amount Canceled
       Bureau or Office                Received   (Percent)          Received   (Percent)         Received (Percent)
 Bureau of Economic and                                 $0.6                          $1.0                       $0.7
                                            $5.1                          $5.2                        $5.3
 Business Affairs                                       (12)                          (19)                       (13)
                                                        $0.3                          $0.8                       $0.7
 Office of Inspector General               $31.9                         $30.0                       $31.5
                                                         (1)                           (3)                         (2)
 Diplomatic
                                                             $1.5                          $0.4                       $0.6
 Telecommunications Service                  $30.6                         $29.3                      $29.2
                                                              (5)                           (1)                        (2)
 Program Office
                                                                                           $0.2                       $0.5
 International Joint Commission                 $0            -—            $6.5                        $6.5
                                                                                            (3)                        (8)
 Bureau of Population, Refugees                                $0                          $1.2                       $0.5
                                              $6.7                       $415.9                      $129.8
 and Migration                                                (0)                           (0)                        (0)
 Bureau of Arms Control,                                     $0.6                          $0.7                       $0.5
                                              $8.3                          $8.4                        $7.7
 Verification and Compliance                                  (7)                           (8)                        (7)
                                                             $3.8                          $1.5                       $0.2
 Office of Medical Services                  $23.9                         $19.5                      $23.7
                                                             (16)                           (8)                        (1)
                                                             $0.5                          $0.2                       $0.1
 Office of the Legal Adviser                 $12.5                         $11.1                      $12.3
                                                              (4)                           (2)                        (1)
                                                             $0.4                          $0.3                       $0.1
 Office of the Chief of Protocol              $1.7                          $2.2                        $1.8
                                                             (24)                          (14)                        (6)
 International Boundary and                                                                  $0                       $0.1
                                                $0            -—            $1.4                        $1.4
 Water Commission                                                                           (0)                        (7)
Source: Prepared by OIG using the “Modified High Level Budget and Spending Extract” budget reports for appropriations that
were canceled in FYs 2012–2010.

        The second criterion used to select bureaus was that the bureaus had at least one
obligation that was made using expired funds in each of the five fiscal years, FYs 2009–2013,
from the Department’s unliquidated obligations database as of March 31, 2013. As shown in
Table 3, only six bureaus made obligations against expired funds in all five fiscal years
reviewed.

Table 3. Bureaus With Obligations Made After Funds Expired

     Bureau or Office                  FY 2009        FY 2010 FY 2011 FY 2012 FY 2013                            Total
 Bureau of Democracy,
 Human Rights, and Labor                         4              3             5            21            14             47
 Bureau of Information
 Resource Management                            13            14              4            21            13             65
 Secretary                                       3             4              5             4             4             20
 Bureau of Near Eastern
 Affairs                                         1              8            4             21              3            37
 Foreign Service Institute                       1              2            2              6              3            14
 Bureau of Administration                       10              2           11              4              3            30
Source: Prepared by OIG using the unliquidated obligation database as of March 31, 2013.


                                                       19
                                                  UNCLASSIFIED
                                             UNCLASSIFIED




        OIG included two bureaus in the audit that had high dollar values of funds returned to the
Treasury and that had at least one obligation made using expired funds during FYs 2009–2013.
Based on its analysis of the data, OIG selected IRM and NEA for testing. Only three bureaus,
IRM, NEA, and the Bureau of Administration, that had created obligations using expired funds
also had large amounts of funds returned to the Treasury each year. OIG chose the two bureaus
that had the largest number of obligations made using expired funds—IRM had 65 and NEA had
37—while the Bureau of Administration had 30.

        OIG also included one bureau that had a low dollar value of funds returned to the
Treasury and that did not have any obligations made using expired funds. Of the ten bureaus that
had the lowest amount of canceled funds, PRM was selected because it had a low dollar value of
funds returned to the Treasury each year and it had no obligations made using expired funds
during the five fiscal years included in the analysis. Although there were bureaus that had lower
dollar values, for example the Office of the Chief of Protocol, OIG determined that the other
bureaus did not receive enough funding each year to allow for meaningful analysis.

        Selection of Obligations for Validity Testing

       OIG selected a sample of obligations for IRM, NEA, and PRM in order to determine
whether the oversight of obligations impacted a bureau’s ability to manage funds. OIG obtained
a copy of the Department’s unliquidated obligations database as of July 31, 2012, and extracted
domestic obligations with positive balances greater than $10 made using single-year or
multi-year appropriations for IRM, NEA, and PRM. OIG removed any obligations made using
expired funds, as these obligations were tested separately.

         OIG selected the obligations for validity testing via stratified random sampling. 1 OIG
initially grouped the obligations by those that had an ending budget fiscal year of 2007 and those
with ending budget fiscal years of 2008–2012. OIG then divided the groups of obligations
between two strata—obligations with available balances between $10.00 and $999.99 and
obligations with available balances greater than or equal to $1,000.00. OIG used these strata to
ensure that some of the lower dollar value obligations would be reviewed but to emphasize
higher dollar value obligations. OIG selected 99 obligations for IRM, 71 obligations for NEA,
and 13 obligations for PRM, for a total of 183, as shown in Table 4.




1
 A stratified random sample is a sample obtained by separating the population elements into nonoverlapping
groups, called “strata,” and then selecting a simple random sample from each stratum. A simple random sample is a
sample in which each member of the population has an equal chance of being drawn for the sample.

                                                  20
                                             UNCLASSIFIED
                                                  UNCLASSIFIED


Table 4. Number and Amount of Obligations Tested
                                     IRM                               NEA                               PRM
                             Number in   Number                Number in   Number               Number in Number in
                              Universe  in Sample               Universe  in Sample              Universe    Sample
  Group         Strata       (Amount)   (Amount)               (Amount)   (Amount)              (Amount)    (Amount)
               $10.00 to                 60               3                 1              1                1                1
                $999.99           ($22,958)        ($1,502)            ($266)         ($266)           ($241)           ($241)
 FY 2007
               $1,000.00                113              40                15             15                2                2
               and Over        ($2,324,847)      ($976,075)      ($4,587,263)   ($4,587,263)        ($24,496)        ($24,496)

               $10.00 to                791               5               271               4                0               0
 FY 2008 ­      $999.99          ($257,607)        ($1,677)        ($107,765)        ($1,701)             ($0)            ($0)
 FY 2012
               $1,000.00             1,615               51              1,130              51              10               10
               and Over     ($124,158,399) ($6,468,976) ($277,827,220) ($5,291,146) ($70,389,877) ($70,389,877)
                                     2,579               99              1,417              71              13               13
 Totals                     ($126,763,811) ($7,448,230) ($282,522,514) ($9,880,376) ($70,414,614)                 ($70,414,614
Source: Prepared by OIG based on information in the July 31, 2012, unliquidated obligation database and OIG’s sampling plan.

         Testing Methodology. OIG confirmed the status of the obligation in the Department’s
domestic accounting system on August 21, 2013. To determine the validity of the obligations,
OIG obtained and reviewed obligation documentation. OIG concluded that an obligation was
valid if it met any of the following conditions:

         1.	 Obligation was deobligated 6 months or less from the date of last expenditure or other
             monetary activity.
         2.	 Obligation had monetary activity, such as an expenditure, that occurred 6 months or
             less prior to August 21, 2013.
         3.	 Obligation was completely liquidated.
         4.	 Bureau provided supporting documentation showing the obligation was still needed
             for a valid purpose.

OIG considered an obligation to be invalid if it met any of the following conditions:

         1.	 Obligation had no monetary activity for more than 6 months and remained open, and
             the bureau did not provide a reasonable explanation for the inactivity.
         2.	 Obligation was deobligated after having no monetary activity for more than 6 months,
             and the bureau did not provide a reasonable explanation for the inactivity.

        Based on its review of the documentation, OIG made preliminary determinations of
validity, provided a list of potentially invalid obligations to each bureau, and asked the bureaus
to review the items and provide additional information to support the questioned obligations.
OIG considered the additional information provided to make a final determination of validity.

        The results of OIG’s testing of obligations to determine validity are included in the
section “Audit Results” of the report.



                                                       21
                                                  UNCLASSIFIED
                                       UNCLASSIFIED



       Selection of Obligations Using Expired Funds

        In order to address its second objective, OIG tested all domestic obligations made using
expired funds to determine whether the obligations were made in accordance with Federal
requirements. IRM had 65 of these obligations, and NEA had 37 of these obligations, for a total
of 102 obligations. During its initial review of the documentation, OIG determined that 4 of
NEA’s 37 obligations were actually established by the European Logistics Support Office in
Belgium using domestic funds. Because the scope of the audit was limited to domestic
obligations, OIG removed these 4 obligations from testing, which decreased the total to 98
obligations.

        OIG reviewed financial and contractual information obtained from the Department’s
financial system and other information, such as emails, obtained from the bureaus and discussed
the obligations with bureau officials to determine why dates of the obligations had been
established during the period in which the funds had already expired.

       The results of OIG’s testing of obligations to determine compliance with Federal
requirements are included in the section “Audit Results” of the report.




                                            22
                                       UNCLASSIFIED
                                UNCLASSIFIED



                                                                                    Appendix B



                                           United States Department of State



•
UNCLASSIFIED
MEMORANDUM

TO:         OIG/AUD- Norman P. Brown
                                           Washington, D.C. 20520

                                            March 17,2014



FROM:       IRM- Steven C. Taylor    1.(
SUBJECT: IRM Response to the Draft Report Recommendations on Audit of
         Department of State Use of Appropriated Funds Prior to Expiration
         and Cancellation

The Bureau of Information Resource Management (IRM) thanks the Office of the
Inspector General (OIG) for the opportunity to review and comment on its draft
report on the Audit of Department of State Use of Appropriated Funds Prior to
Expiration and Cancellation.

We have reviewed the draft report and commend the OIG for the thorough and
professional manner in which it conducted the Audit. We agree with and accept
the two recommendations provided by the OIG to improve IRM's oversight of
obligations.

Our responses to the recommendations are as follows:

Recommendation 1. OIG recommends that the Bureau of Information Resource
Management (IRM) enhance its funds management standard operating procedures
to improve oversight of obligations. Specifically, IRM should include a
requirement that the allotment holders review obligations monthly and that the
review of obligations is independently monitored.

      Response. IRM agrees with this recommendation. IRM has enhanced its
      funds management standard operating procedures to improve oversight of
      obligations. This enhancement was achieved through the development of a
      new Unliquidated Obligation (ULO) Tracking Tool that replaces the
      Metastorm tasking system reviewed by the OIG. The tool dramatically
      enhances visibility into IRM's obligations and enables allotment holders to
      conduct comprehensive monthly reviews. In addition, IRM has in place




                                     23 

                                UNCLASSIFIED
                               UNCLASSIFIED




                               UNCLASSIFIED
                                    2

     monthly monitor and obligation reviews that include IRMIFM, Budget
     Planning (BP), and Comptroller and Global Financial Services (CGFS).

Recommendation 2. OIG recommends that the Bureau of Information Resource
Management determine whether the balance of $239,467 in invalid unliquidated
obligations identified by OIG are necessary and, if not, deobligate them.

     Response. IRM agrees with this recommendation. On March 13, 2014,
     IRM communicated guidance to allotment holders to determine whether the
     remaining balance of $217,800 of the $239,467 in invalid unliquidated
     obligations identified by OIG are necessary and, if not, to deobligate them.
     Allotment holders are required to provide determinations on these
     obligations in 30 days.




                                    24 

                               UNCLASSIFIED

                                 UNCLASSIFIED



                                                                                          Appendix C

                                                            United States Department of State

                                                             Washington, D.C. 20520



                                                                         March 21, 2014


UNCLASSIFIED

MEMORANDUM

TO:            OIG/AUD- Norman~~o.z,

FROM:         NEA- Lee Lohman      {-N
SUBJECT:      NEA's Response to Report on Audit of Department of State Use of
Appropriated Funds Prior to Expiration and Cancelation

This memorandum is in response to the 2014 NEA OIG audit report. Below, we have
addressed both recommendations for NEA, as stated on the draft report.

Recommendation 3: "OIG recommends that the Bureau of Near Eastern Affairs (NEA)
enhance its funds management standard operating procedures to improve oversight of
obligations. Specifically, NEA should include a requirement that the allotment holders
review obligations monthly and that the review of obligations is independently
monitored."

We are currently performing monthly obligation reviews. Moreover, we have already
made substantial gains in deobligating a substantial number of ULOs by conducting more
frequent meetings with accountable NEA personnel and improving our oversight and
follow-up on open obligations.

In addition, we're working with some of our agency counterparts, such as AQM and
Charleston, on some of the logistical challenges concerning closing out ULO's, i.e.
contract close-out delays, delayed training and contract invoicing, etc. Another
challenge we face is motoring domestic obligations that are managed by overseas
Program Officers. We've recently improved coordination with Post by providing them
the necessary reports on the status of open obligations, which assists them with their
review and tracking of ULOs. Constant follow up has proven to be very effective in
managing our ULOs.

Recommendation 4: "OIG recommends that the Bureau of Near Eastern Affairs
determine whether the balance of$741,545 in invalid unliquidated obligations identified
by OIG are necessary and, if not, de-obligate them."




                                  UNCLASSIFIED




                                      25 

                                 UNCLASSIFIED
                                  UNCLASSIFIED





We will re-review all obligations that the OIG identified as "invalid" and make a
determination if a de-obligation is required or if the obligations remain legitimate and
must stay on our books until fully executed.

We appreciate your continued assistance and guidance with helping us to improve our
financial management processes and procedures, and we are working diligently to remain
in compliance with department standards. Please feel free to contact Vernett Smith at
          [Redacted] (b) (6)[Redacted] (b) (6)
202-736-             or                        @state.gov if you require further assistance.




                                   UNCLASSIFIED




                                       26 

                                  UNCLASSIFIED

                               UNCLASSIFIED



                                                                                   Appendix D


                                                 United States Department of State

                                                 Bureau of Population, Refugees,
                                                 and Migration

                                                 Washington , D. C. 20520

                                                  March 20, 2014


UNCLASSIFIED
MEMORANDUM

TO:         OIG/AUD - Norman P. Brown

FROM:       PRM- Kelly T. Clements@

SUBJECT: Draft Report on Audit of Department of State Use of Appropriated
         Funds Prior to Expiration and Cancelation

       Thank you for the opportunity to provide comments on the subject draft
audit report. Although the report does not contain any recommendations addressed
to PRM, we appreciate that the report highlights opportunities to improve funds
management as well as procedures to put in place to ensure adequate controls over
obligations. PRM will continue to strive to monitor and close out obligations on a
timely basis and PRM remains committed to effective management of
humanitarian assistance programs.




                                    27 

                               UNCLASSIFIED
                                  UNCLASSIFIED



                                                                                       Appendix E


      f*~­                                         United States Department of State
~~--
.                                                  lf'ushington_ D.C.   20520
      ~




    UNCLASSIFIED

TO:       OIG - Norman P. Brown

    FROM:        BP - BarbaraA. ~
SUBJECT: Draft Report Audit of Department of State Use of Appropriated Funds
         Prior to Expiration and Cancelation

    In response to the Draft Report Audit of Department of State Usc of Appropriated
    Funds Prior to Expiration and Cancelation, version March 2014, BP offers the
    following comments:

Page I: As a result, although the Department had used the vast majority of its
funding within the approved time periods, the Department lost the use of
approximately $153 million in funds because of limitations in funds management.

Recommended Change: As a result, although the Department had used the vast
majority of its funding within the approved time periods, the Department lost the
usc of approximately $14 million in funds because oflimitations in funds
management.

BP Response: We are concerned that this finding is overly sweeping, as it is
passing judgment on the Department's entire expired balance based on the sample
of three bureaus that represented 9% of that total, of which NEA was 7%. The
statement should be narrowed to only the $1 4.2 million in cancelled funds for the
three bureaus (OIG, PRM, and NEA) reviewed. The report itself acknowledges
that NEA faces unique challenges.

Page 14:
Recommendation I: OfG recommends that the Bureau oflnformation Resource
Management (IRM) enhance its funds management standard operating procedures
to improve oversight of obligations. Specifically, fRM should include a



                                    UNCLASSIFIED




                                       28 

                                  UNCLASSIFIED
                                            UNCLASSIFIED




                                 UNCLASSIFIED
                                         2
requirement that the allotment holders review obligations monthly and that the
review of obligations is independently monitored.

Recommendation 2: OIG recommends that the Bureau of Information Resource
Management determine whether the balance of$239,467 in invalid unliquidated
obligations identifi ed by OIG are necessary and, if not, deobligate them.

BP Response: The two recommendations pertaining to IRM are valid. Although
IRM does have monthly meetings with program managers, they do not perform a
comprehensive monthly review of obligations and expenditures. The 4 FAM 087.2
requires that unliquidated obligation balances and disbursements be reviewed on a
monthly basis.

If you have any questions or require additional information, please contact Stephen
                       [Redacted] (b) (6)
Verrecchia at 202-647-       [Redacted] (b) (6) @state.gov)




                                            UNCLASSIFIED




                                                 29 

                                            UNCLASSIFIED

                                UNCLASSIFIED





Major Contributors to This Report

Gayle Voshell, Director
Financial Management Division
Office of Audits

Mary P. Siatis, Audit Manager
Financial Management Division
Office of Audits

Angelo Arpaia, Auditor
Financial Management Division
Office of Audits

Karen Crue, Auditor
Financial Management Division
Office of Audits

Carol E. Hare, Auditor
Financial Management Division
Office of Audits




                                     30
                                UNCLASSIFIED
       UNCLASSIFIED





 FRAUD, WASTE, ABUSE,

 OR MISMANAGEMENT

OF FEDERAL PROGRAMS

   HURTS EVERYONE.


         CONTACT THE

 OFFICE OF INSPECTOR GENERAL

            HOTLINE

      TO REPORT ILLEGAL

   OR WASTEFUL ACTIVITIES:



         202-647-3320

         800-409-9926

      oighotline@state.gov

          oig.state.gov


   Office of Inspector General

    U.S. Department of State

         P.O. Box 9778

     Arlington, VA 22219





       UNCLASSIFIED

